No.

IN THE
SUPREME COURT OF THE UNITED STATES

TRAVON JARVEL JACKSON, PETITIONER,
vs.
UNITED STATES, RESPONDENT.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CARLTON F. GUNN
Attorney at Law
65 Norm Raymond Ave., Suite 320
Pasadena, California 91103
(626) 667-9580
cgunnlaw@gmail. com
Attorney for the Peti iu^jrQ0\/EC)

JUL 2 “ 2020

QUESTIONS PRESENTED

A

Whether evidence of prior prostitution activity that is inadmissible

under Rule 412 of the Federal Rules of Evidence to rebut a claim of sex
trafficking by force under 18 U.S.C. § 1591 may be admissible to rebut a claim
of sex trafficking by fraud under § 1591.

B.

Whether Rule 608(b) of the Federal Rules of Evidence limiting evidence

of specific instances of conduct to attack or support a witness’s character for
truthfulness applies to evidence of an alleged victim’s lie to investigators
during investigation of the very offense being prosecuted.

l

S'

.S'

TABLE OF CONTENTS
PAGE
I.

OPINIONS BELOW.

1

II.

JURISDICTION,

2

m.

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

2

STATEMENT OF THE CASE,

4

A

JURISDICTION IN THE COURTS BELOW.

4

B.

FACTS MATERIAL TO CONSIDERATION OF THE
QUESTIONS PRESENTED........................................

4

1.

Arrest and Indictment.

4

2.

Rule 412 Motion.

5

3.

Trial.

6

IV.

4.
V.

a.

The government case

6

b.

The defense case... .

9

Appeal.................................

REASONS FOR GRANTING THE WRIT

11
12

A

THIS CASE IS A GOOD VEHICLE TO CLARIFY A
DISTINCTION BETWEEN USING EVIDENCE OF PRIOR
PROSTITUTION ACTIVITY TO REBUT A CHARGE OF SEX
TRAFFICKING BY FORCE OR COERCION AND USING
SUCH EVIDENCE TO REBUT A CHARGE OF SEX
TRAFFICKING BY FRAUD...................................................... 13

B.

THIS CASE IS A GOOD VEHICLE TO MAKE CLEAR THAT
FEDERAL RULE OF EVIDENCE 608(b)’S LIMITATIONS ON
IMPEACHMENT BY SPECIFIC INSTANCES OF CONDUCT
TO ATTACK OR SUPPORT A WITNESS’S CHARACTER
FOR TRUTHFULNESS DO NOT APPLY TO A LIE TOLD
DURING INVESTIGATION OF THE VERY CASE BEING
PROSECUTED.......................................................................... 18
u

TABLE OF CONTENTS (cont’d)
PAGE
C.

VI.

THE QUESTIONS PRESENTED ARE IMPORTANT
BECAUSE THEY IMPLICATE THE MOST FUNDAMENTAL
ASPECT OF THE SIXTH AMENDMENT RIGHT TO
CONFRONT WITNESSES........................................................ 21
22

CONCLUSION.

APPENDIX 1 (Court of Appeals Opinion)......................................

A001

APPENDIX 2 (Order Denying Rehearing)......................................

A006

APPENDIX 3 (Appellant’s Opening Brief [relevant portions])........

A007

APPENDIX 4 (Appellant’s Reply Brief [relevant portions])............

A047

APPENDIX 5 (transcript of closing arguments)..............................

A060

APPENDIX 6 (transcript of discussion of sex trafficking instruction)

A134

APPENDIX 7 (kidnapping elements instruction).............................

A150

SEPARATELY FILED UNDER SEAL
APPENDIX 8 (written order denying Rule 412 motion)............................... A152
APPENDIX 9 (transcript of ruling on motion for reconsideration of Rule 412
motion and offer of proof)........................................................................... A160

m

TABLE OF AUTHORITIES
CASES
PAGE
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384(1990)........................

20

Davis v. Alaska,
415 U.S. 308 (1974)........................

21,22

Delaware v. VanArsdall,
475 U.S. 673 (1986)........................

21

Koon v. United States,
518 U.S. 81 (1996)..........................

20

Learmonth v. Sears, Roebuck & Co.,
631 F.3d 724 (5th Cir. 2011)...........

19

United States v. Carson,
870 F.3d 584 (7th Cir. 2017),
cert, denied, 138 S. Ct. 2011 (2018)

14

United States v. Cephus,
684 F.3d 703 (7th Cir. 2012)...........

14

United States v. Fusco,
748 F.2d 996 (5th Cir. 1984)...........

19

United States v. Opager,
589 F.2d 799 (5th Cir. 1979)

19

United States v. Pelton,
578 F.2d 701 (8th Cir. 1978)

16

United States v. Rivera,
799 F.3d 180 (2d Cir. 2015).

14, 15

United States v. Roy,
781 F.3d416 (8th Cir. 2015),

14

United States v. Skelton,
514 F.3d 433 (5th Cir. 2008)

19

IV

*

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
Villaman v. United States,
136 S. Ct. 2396 (2016)

15

STATUTES AND RULES
18U.S.C. § 1201(a).................................

4

18U.S.C. § 1591.....................................

2, 4, 13, 15

18U.S.C. §2421.....................................

4

18U.S.C. §3231.....................................

4

28 U.S.C. § 1254(1).................................

2

28U.S.C. § 1291.....................................

4

Rule 403, Federal Rules of Evidence........

12, 19, 20

Rule 412, Federal Rules of Evidence........

passim

Rule 412(c)(2), Federal Rules of Evidence,

1

Rule 608(b), Federal Rules of Evidence.. .

passim

OTHER AUTHORITIES
American Bar Association Section of Litigation, Emerging Problems Under
the Federal Rules ofEvidence (3d ed. 1998)
Fed. R. Evid. 608(b) advisory committee’s note
(2003 Amendments)

v

18

18, 19, 20

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Travon Jarvel Jackson petitions for a writ of certiorari to review the
judgment and opinion of the United States Court of Appeals for the Ninth
Circuit in his case.

I.
OPINIONS BELOW

The memorandum opinion of the United States Court of Appeals for the
Ninth Circuit, which appears at 806 Fed. Appx. 533, is included in the
appendix as Appendix 1. An order denying a petition for rehearing en banc is
included in the appendix as Appendix 2. The district court rulings are
included in the appendix as Appendix 8 and Appendix 9. i

*

*

i

*

Appendix 8 and Appendix 9 are being separately filed with a motion
to file under seal pursuant to Rule 412(c)(2) of the Federal Rules of Evidence.
1

T'

n.
JURISDICTION

The judgment of the United States Court of Appeals for the Ninth
Circuit was entered on March 13, 2020, see App. A001, and a timely petition
for rehearing was denied on March 17, 2020, see App. A006. The jurisdiction
of this Court is invoked pursuant to 62 Stat. 928, 28 U.S.C. § 1254(1).

ni.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Sixth Amendment to the United States Constitution provides, in
pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right... to be confronted with the witnesses against
him; ....
18 U.S.C. § 1591(a) provides, in pertinent part:
(a)

Whoever knowingly—
(1) in or affecting interstate or foreign
commerce, or within the special maritime and
territorial jurisdiction of the United States, recruits,
entices, harbors, transports, provides, obtains,
advertises, maintains, patronizes, or solicits by any
means a person; or
(2) benefits, financially or by receiving
anything of value, from participation in a venture
which has engaged in an act described in paragraph
(1),
knowing, or, except where the act constituting the violation
of paragraph (1) is advertising, in reckless disregard of the
fact, that means of force, threats of force, fraud, coercion
described in subsection (e)(2), or any combination of such
means will be used to cause the person to engage in a
commercial sex act,... [is guilty of an offense].
2

Rule 412 of the Federal Rules of Evidence provides, in pertinent part:
(a) Prohibited Uses. The following evidence is
not admissible in a civil or criminal proceeding involving
alleged sexual misconduct:
(1) evidence offered to prove that a victim
engaged in other sexual behavior; or
(2) evidence offered to prove a victim's
sexual predisposition.
(b) Exceptions.
(1) Criminal Cases. The court may admit
the following evidence in a criminal case:
(A) evidence of specific instances of a
victim's sexual behavior, if offered to prove that
someone other than the defendant was the source of
semen, injury, or other physical evidence;
(B) evidence of specific instances of a victim's
sexual behavior with respect to the person accused of
the sexual misconduct, if offered by the defendant to
prove consent or if offered by the prosecutor; and
(C) evidence whose exclusion would violate
the defendant's constitutional rights.
Rule 608(b) of the Federal Rules of Evidence provides:
(b) Specific Instances of Conduct. Except for a
criminal conviction under Rule 609, extrinsic evidence is
not admissible to prove specific instances of a witness's
conduct in order to attack or support the witness's character
for truthfulness. But the court may, on cross-examination,
allow them to be inquired into if they are probative of the
character for truthfulness or untruthfulness of:
(1) the witness; or
(2) another witness whose character the
witness being cross-examined has testified about.

3

IV.
STATEMENT OF THE CASE

A

JURISDICTION IN THE COURTS BELOW.

The district court had jurisdiction under 18 U.S.C. § 3231. The court of
appeals had jurisdiction under 28 U.S.C. § 1291.

B.

FACTS MATERIAL TO CONSIDERATION OF THE QUESTIONS

PRESENTED.

1.

Arrest and Indictment.

On August 4, 2016, the International Rescue Mission in Tucson,
Arizona received a call from a sex trafficking hotline asking it to help a
woman who had called the hotline from a hotel. App. A020. An International
Rescue Mission case manager went to the hotel to pick up the woman - who
was the alleged victim in this case, V.C. App. A020. Detectives interviewed
V.C., she told them Petitioner was trafficking her as a prostitute, and the
detectives arrested Petitioner. App. A020. He was subsequently charged in
federal court with sex trafficking, in violation of 18 U.S.C. § 1591(a)(1);
interstate transportation for prostitution, in violation of 18 U.S.C. § 2421; and
kidnapping, in violation of 18 U.S.C. § 1201(a). App. A020.

4

2.

Rule 412 Motion.

The defense filed a motion pursuant to Rule 412 of the Federal Rules of
Evidence to introduce evidence of other prostitution by V.C. The motion
noted V.C. had told a Tucson detective she had worked as a cosmetologist for
26 years and had never before engaged in prostitution. App. A021. The
defense proffered three pieces of evidence suggesting this was a lie. The first
piece of evidence was a set of reports showing V.C. had been arrested for
prostitution in 1990. App. A021. The second piece of evidence was a set of
text messages dated May 4, 2016 - two weeks before V.C. met Petitioner suggesting she had been engaging in prostitution then. App. A021. The third
piece of evidence was a set of advertisements V.C. had posted on a website
called backpage.com after returning to her home in Florida, offering services
as an “escort.” App. A021. At a later offer of proof hearing, V.C. admitted
what this evidence suggested, namely, that she had “been involved in
prostitution at least as far back as” 1990, and she was performing acts of
prostitution when she was advertising herself as an escort on the backpage
website. App. A021. Further, she had engaged in other prostitution entirely
on her own, without a pimp, App. A021; indeed, she had “never, ever worked
for someone, ever,” App. A171.
The defense argued V.C.’s lie to the police supported a theory V.C. had
fabricated her claims and exclusion would violate Petitioner’s right to confront
witnesses. App. A021. The government argued the evidence should be
excluded. App. A021. The district court ruled extrinsic evidence of the prior
lie was inadmissible under Rule 608(b) of the Federal Rules of Evidence and
5

exercised its discretion to preclude even cross examination, though it stated it
would reconsider if the government opened the door. See App. A152-58.2

2.

Trial.

a.

The government case.

The only witness to the alleged sex trafficking was V.C. She explained
she was on Social Security mental health disability and the Social Security
Administration was requiring her to use a payee to manage her benefits. App.
A023. She was having a hard time making ends meet because her payee, an
adult son, was not giving her any of the money or paying her bills. App.
A024. She met Petitioner when she responded to a “bikini maid ad” he had
placed. App. A024. He told her she was too old to be just a bikini maid and
would have to do body mbs. App. A024. She matter-of-factly added that
“[m]ost of the men wanted more, so I had to give more,” meaning “sexual acts
in many different types and forms.” App. A024. Petitioner “synced” their
phones so he would know when she got a call3 and not be cheated out of his
share of the money, which they divided 40%-60%. App. A024.
V.C. then described an incident in which her daughter had stolen some
2 The defense did make an argument during trial that the government
had opened the door. The district court expressed concern about the jury
having been misled, but ultimately denied the motion. See App. A161-62.
3 Later testimony revealed this was an application called “Google
Voice,” which forwards calls and texts made to a Google voice number to
multiple phones. App. A024 n. 1.
6

money from her, they had gotten into a fight, and the daughter broke all of the
apartment windows. App. A024. V.C.’s daughter was taken away and the
man who was subleasing the apartment to V.C. told V.C. she had 48 hours to
fix the windows or get out. App. A024. V.C. called Petitioner, and he came
over, told her to “pack [her] stuff,” started packing things himself, and took
her property to a storage unit. App. A024. V.C. also changed her Social
Security payee to Petitioner because her son was not using the money for her
bills. App. A024.
V.C. started prostituting at a business suite Petitioner was renting and
subsequently in hotel rooms he rented for her in various Florida cities. App.
A024-25. Petitioner used the money from V.C. ’s Social Security to pay for the
hotels. App. A025. He also started keeping all of the money from the
prostitution, explaining V.C. “spent money recklessly and that [V.C.] needed
to save money if [V.C.] was going to get an apartment to get [her] daughter
back.” App. A025. V.C. agreed because she “didn’t have anywhere to go”
and “was not doing so good mentally.” App. A025. Their phones remained
“synced” so Petitioner knew when a customer contacted V.C. and could come
collect the money after the customer left. App. A025. V.C. admitted
Petitioner “was not really physical with [her]”; rather, “it was his mouth.”
App. A025.
At some point, a “client” who had responded to one of the ads Petitioner
was posting tried to rob V.C. with a gun. App. A025. V.C. had no money to
give the “client” and jumped out the bathroom window. App. A025. She fell
and “broke [her] back,” was taken to a hospital, kept there several days, and
discharged with medication, a back brace, and a neck splint. App. A025.
7

After the injury, Petitioner had V.C. try to make money by selling “fire
sticks,” which are devices to download movies or music without paying for
cable. App. A025. When V.C. did not make any money, Petitioner told her
they were “broke” and “have to do something,” so she started prostituting
again. App. A025-26. She claimed she asked Petitioner to just take her to a
shelter, but he refused, made her start working again, and continued to keep
the money. App. A026. She also claimed he would not let her wear her back
brace and neck splint, but kept them in the trunk of his car. App. A026.
V.C. then testified, “Next thing I know, he tells me ‘going to Arizona.’”
App. A026. She claimed he knew she had a court date related to the attempted
robbery coming up, she was in the car with Petitioner, and “the next thing I
know, we’re on our way to Arizona.” App. A026. When they arrived in
Tucson, they went to the house of a friend of Petitioner. App. A026. They
“hung out there for a while getting high,” Petitioner posted an “outcall” ad,
and Petitioner used the money from an “outcall” to rent a hotel room for
prostitution.4 App. A026. Petitioner collected the money as before and
provided V.C. with a prepaid Visa credit card to buy food. App. A026.
V.C. claimed she eventually told Petitioner, “I can’t do this any more,”
but he sent her texts saying things like “you cannot quit now,” “We’ve come
too too far,

99 66

If I lose, you lose,” and “What about your daughter?” App.

A026. She claimed she fell asleep that night and did not answer any customer
calls, which led to angry texts in the morning. App. A026. She claimed she
decided to call the sex trafficking hotline when Petitioner sent her a text
4 An “outcall” is prostitution at the customer’s location. App. A026
n.2.
8

saying, “Well, I’m coming over right now and take care of this.” App. A026.

b.

The defense case.

The defense challenged parts of V.C.’s testimony and suggested
alternative interpretations of testimony it did not challenge. Cross
examination elicited evidence suggesting V.C. was not under duress in
Arizona. This included evidence of calls she had made to an aunt and a friend
in Florida, speaking to the friend for 39 minutes, and speaking with the aunt
on the phone and exchanging texts about the aunt’s dog, which V.C. described
as “so cute.” App. A027-28. It also included photographs taken during the
drive from Florida to Arizona. App. A028. V.C. claimed she took these
photographs as “landmarks” because “I thought he was going to kill me or do
something to me,” but the photographs did not show any locations. App.
A028.
The defense also elicited admissions suggesting V.C. had another reason
for wanting to return to Florida and had explored returning on her own. She
admitted her daughter had asked her to be present for the daughter’s high
school graduation on August 23, and she had searched the Internet about travel
to Florida shortly before calling the sex trafficking hotline. App. A028. She
claimed she did not find out about the graduation until after calling the hotline,
but her phone showed several phone calls with her daughter before that. App.
A028.
There was also evidence suggesting V.C. could have left if she wanted
to. There were texts suggesting periods V.C. was alone without Petitioner,
9

including a text about a flash flood that appeared to be preventing Petitioner
from traveling and a text from V.C. saying she “had a 9:00 o’clock” and was
“going to the store now.” App. A028. Petitioner’s friend, Joel Malachi
Wilson, testified about times V.C. and Petitioner were apart, including
Petitioner’s return after dropping V.C. off at a hotel one night, Petitioner
spending 80% to 90% of his time with Mr. Wilson, and the two men planning
a night in Scottsdale without V.C. App. A028. Mr. Wilson also described
V.C. and Petitioner staying at his house the first night, saying they had drunk,
eaten, and smoked “herb,” and everyone, including V.C., was “smiling and
laughing.” App. A028.
Defense counsel discussed both this evidence and alternative
interpretations of other evidence in closing argument. He noted there was no
hint of coercion when V.C. responded to the bikini maid ad and started
engaging in prostitution in her apartment. See App. A092-93, A094, A105.
He suggested Petitioner was trying to help V.C. when he took her belongings
to the storage unit and agreed to become her Social Security payee, noting
V.C. had no place else to store her possessions and her prior payee, the son,
was withholding the money. See App. A093-94, A095, A104. He suggested
Petitioner was managing the money for V.C. by using it to pay for the hotel
rooms and provide her with food. See App. A096. He suggested Petitioner
could have left the back brace in the storage unit if he did not want V.C. to
have it. See App. A099.
Petitioner’s attorney also pointed to evidence suggesting V.C. went to
Arizona voluntarily. He characterized the photographs as “picture[s] of a road
trip,” and pointed out there was nothing in them that would make them useful
10

as the “landmarks” V.C. claimed they were. App. A097. He also pointed to
Mr. Wilson’s testimony that V.C. did not act like she was under duress and
was often alone. See App. A099-100, A104-05. Finally, he suggested V.C.
called the hotline because she was homesick and wanted to come home,
perhaps because of the calls with her daughter. See App. A110-11.
The jury did not completely reject the defense argument. It returned a
verdict of guilty on the sex trafficking and interstate transportation for
prostitution charges, but a verdict of not guilty on the kidnapping charge.
App. A031.

4.

Appeal

Petitioner appealed his convictions. He challenged the district court’s
exclusion of the evidence of V.C.’s prior prostitution activity and her lie to the
investigating officers that she had never before engaged in prostitution.5 He
argued Rule 608(b) did not apply because V.C.’s lie about prostitution activity
had been made during the investigation of the charges in this case, not in
unrelated circumstances. See App. A036-39. He also argued certain
statements by the prosecutor in opening statement and V.C. in her testimony
had opened the door to the evidence of other prostitution activity. See App.
A040-44.6 Finally, he argued the prior prostitution activity was relevant to

5 Petitioner also raised other claims not pertinent to this Petition. See
App. A003-05, A018-19.
6 This argument is not being pursued in the Petition, as it is a casespecific question.
11

rebut an alternative government theory that Petitioner had used fraud to cause
V.C. to engage in the prostitution even if it was not relevant to rebut a theory
that Petitioner had used force or coercion. See App. A044-46.
The court of appeals rejected Petitioner’s arguments and affirmed in a
brief unpublished opinion. As to the claims being raised in this Petition, it
stated:
Evidence of other acts of prostitution is irrelevant to
whether Jackson used force, fraud, or coercion to engage in
commercial acts. Additionally, the district court acted within its
discretion in excluding under Federal Rules of Evidence 403 and
412 evidence of V.C. s lie to an investigating officer about her
prior prostitution activities.
App. A002 (citations omitted).

V.
REASONS FOR GRANTING THE PETITION

The Petition should be granted for three reasons. First, the case is a
good vehicle to clarify a distinction between using evidence of prior
prostitution activity to rebut a charge of sex trafficking by force or coercion
and using such evidence to rebut a charge of sex trafficking by fraud. Second,
the case is a good vehicle for making clear that Federal Rule of Evidence
608(b)’s limitations on impeachment by specific instances of conduct to attack
or support a witness’s character for truthfulness do not apply to lies told during
investigation of the very crime being prosecuted. Third, the questions
presented are important because they implicate the most fundamental aspect of
the Sixth Amendment right to confront witnesses.

12

A

THIS CASE IS A GOOD VEHICLE TO CLARIFY A DISTINCTION

BETWEEN USING EVIDENCE OF PRIOR PROSTITUTION ACTIVITY
TO REBUT A CHARGE OF SEX TRAFFICKING BY FORCE OR
COERCION AND USING SUCH EVIDENCE TO REBUT A CHARGE OF
SEX TRAFFICKING BY FRAUD.

Rule 412 of the Federal Rules of Evidence is the federal version of what
is often called a rape shield law. It places strict limits on the admissibility of
other sexual conduct of the alleged victim. Such evidence is admissible in a
criminal case only if (A) offered to prove another person was the source of
semen, injury, or other physical evidence; (B) the conduct is with the
defendant and offered to prove consent or offered by the prosecutor; or (C)
exclusion of the evidence would violate the defendant’s constitutional rights.
Fed. R. Evid. 412(b)(1).
A number of cases have applied this rule to evidence of prior
prostitution activity in sex trafficking cases prosecuted under the statute
Petitioner was prosecuted under - 18 U.S.C. § 1591. That statute makes it a
crime to, inter alia, recruit, entice, harbor, transport, or provide another person
to engage in a commercial sex act when the defendant knows that “force,
threats of force, fraud, coercion described in subsection(e)(2), or any
combination of such means” will be used to cause the other person to engage
in the act. 18 U.S.C. § 1591(a).7

7 Section 1591 also applies to causing a minor to engage in a
commercial sex act even without force, threats of force, fraud, or coercion, but
the alleged victim here, V.C., was not a minor.
13

Most of the § 1591 cases considering the admissibility of evidence of
prior prostitution activity have focused on its relevance not to an allegation of
fraud but to an allegation of force or coercion. The courts have generally held
such evidence inadmissible because a prior willingness to engage in
prostitution does not mean an alleged victim cannot be compelled at another
time. As the Eighth Circuit reasoned in United States v. Roy, 781 F.3d 416
(8th Cir. 2015): “The victim’s participation in prostitution either before or
after the time period in the indictment has no relevance to whether [the
defendant] beat her, threatened her, and took the money she made from
prostitution in order to cause her to engage in commercial sex.” Id. at 420. As
the Seventh Circuit reasoned in United States v. Cephus, 684 F.3d 703 (7th
Cir. 2012):
Even if no promises were made to [the victim], this would
not be evidence that she consented to be beaten and to
receive no share of the fees paid by the johns she serviced.
And even if she knew going in, from her prior experience,
that [the defendant] probably would beat ner, it was still a
crime for him to do so. And finally the fact that she been a
prostitute before does not suggest that he didn’t beat and
threaten her - that was his modus operandi and there’s no
evidence that he would have made an exception for [the
victim].
Id. at 708. See also United States v. Carson, 870 F.3d 584, 595 (7th Cir. 2017)
(collecting cases), cert, denied, 138 S. Ct. 2011 (2018).
These cases have not considered the fraud alternative in § 1591. A case
which highlights the question in the fraud context - through a dissenting
opinion - is United States v. Rivera, 799 F.3d 180 (2d Cir. 2015). The
dissenting opinion in that case explained how prostitution experience was
relevant to a theory that the victims had been defrauded into engaging in

14

prostitution.
[T]he government’s theory was that the victims accepted
employment with defendants and then “engage[d] in [the]
commercial sex act[s]” that form the basis for defendants’
prosecution only because of defendant’s “fraud.” 18U.S.C.
1° TT °
§ 1591(a). But the precluded line of inquiry - the victims’
prior
nrior places
nlaces of employment
emDlovment and exposure
exnosure to sexualized
environments (as well as prior work as prostitutes) - bears
directly on whether they were defrauded within the
meaning of 18 U.S.C. § 1591(a); that is, whether they
understood the terms and circumstances of their
employment.
Rivera, 799 F.3d at 193 (Jacobs, J., dissenting).
The question of fraud was not squarely presented in Rivera because the
defendant had not clearly argued it there. At least in the view of the majority
opinion, “Appellants never argued this,” id. at 188, and “[t]he central issue in
the case was coercion: whether the women voluntarily engaged in commercial
sexual acts, or whether they were forced to do so by the Defendants.” Id.
(quoting appellant brief) (emphasis in original). “Thus, it would seem that the
dissenter’s concerns are grounded in neither the evidence defendants sought to
offer nor the arguments they have made.” Id.
This contrasts with the present case because Petitioner did clearly argue
the fraud theory. See A044-46, A058-59. This makes the present case a good
vehicle to consider the issue where Rivera was not, see Villaman v. United
States, 136 S. Ct. 2396 (2016) (denying petition for writ of certiorari in
Rivera).
The present case is also a better vehicle because fraud may have been
the government’s best theory in the present case. First, the evidence of force
was far from compelling. The evidence of threats of force was so weak that
the district court was on the fence about whether to even instruct on that
15

alternative, see App. A143-44 (“So unless you can point to something where
there would be the threats of physical force, I just do not see it.”), and the court
eventually included the alternative only grudgingly, explaining, “I think the
jury could possibly infer threats of force even though there is no force that was
involved,” App. A148. And the jury acquitted Petitioner of the kidnapping
count, which meant it doubted either that V.C. was “held” or that she was
“kidnapped,” “seized,” or “confined,” App. A151 (instruction listing elements
of kidnapping), during the transportation from Florida to Arizona.8
Second, the prosecutor expressly argued a fraud theory in her closing
argument.
She signs her Social Security over to him because
she cannot be the payee. She did not say: I do not want to
receive this money, I want you to. Travon Jackson.
At that point she cannot be her own payee, her son
weis her payee and takes the money from her over the last
couple of months, so she gives it to the defendant because
here is someone that tells me he is going to make things
better for me, she believed him. He misled her, he tricked
her, he used that element of fraud, he made her believe that
things would be better if she stayed with him. This is the
only way you’re going to get an apartment back, the only
way you’re going to get your daughter back. She thinks it
is in my best interest to give him mis money, at least maybe
he will give some to me eventually. He never did.
But that is what he led her to believe.
App. A122-23.
JH]e used coercion, used fraud. He mislead [V.C.]. He led
her to believe that she had no choice but to commit acts of
prostitution. He led her to believe that this is the only way
that she would get money. The only way she would be able

8 The jury could still convict Petitioner of the interstate transportation
for prostitution offense because that offense can be committed even when the
person transported is a willing participant. See United States v. Pelton, 578
F.2d 701, 712 (8th Cir. 1978).
16

to get her daughter back. He led her to believe that she had
no choice, because he manipulated her weaknesses, he took
advantage of her situation.
App. A088-89.
Finally, the present case is a good vehicle because there was a viable
defense argument about how and why the prior prostitution experience
undercut the government’s fraud theory. Evidence that V.C. had previous
experience with prostitution, including prostitution on her own without a
pimp, see supra p. 5 (noting admission of prior prostitution and testimony that
“I have never, ever worked for someone, ever”), was directly responsive to a
government argument that Petitioner led V.C. to believe she could make
money from prostitution only through him. The prosecutor argued Petitioner
“led [V.C.] to believe that [committing acts of prostitution for Petitioner] was
the only way that she would get money,” supra p. 16, and “he made her
believe that things would be better if she stayed with him,” supra p. 16. This
was a plausible argument if V.C. had never before earned money as a
prostitute without using a pimp. But it was a far less plausible argument if
V.C. had experience without a pimp,. The evidence of prior prostitution
activity without a pimp therefore rebutted the government argument that
Petitioner used fraud to induce V.C. to engage in prostitution.

17

B.

THIS CASE IS A GOOD VEHICLE TO MAKE CLEAR THAT

FEDERAL RULE OF EVIDENCE 608(b)’S LIMITATIONS ON
IMPEACHMENT BY SPECIFIC INSTANCES OF CONDUCT TO ATTACK
OR SUPPORT A WITNESS’S CHARACTER FOR TRUTHFULNESS DO
NOT APPLY TO A LIE TOLD DURING INVESTIGATION OF THE VERY
CASE BEING PROSECUTED.

Federal Rule of Evidence 608(b) creates two limitations on the use of
specific instances of conduct to attack or support a witness’s character for
truthfulness. First, it creates an absolute bar on the use of extrinsic evidence to
prove specific instances of conduct. See Fed. R. Evid. 608(b) (“Except for a
criminal conviction under Rule 609, extrinsic evidence is not admissible to
prove specific instances of a witness’s conduct in order to attack or support the
witness’s character for truthfulness.”). Second, it allows, but does not require,
a court to permit cross examination about specific instances of conduct. See
Fed. R. Evid. 608(b) (“ But the court may, on cross-examination, allow them to
be inquired into if they are probative of the character for truthfulness or
untruthfiilness . . .”). This means a court may preclude even cross examination
about specific instances of conduct, which is what the district court here did.
Left unaddressed by the rule is whether such evidence is admissible
when it has another purpose. This has resulted in the rule “[o]n occasion . . .
be[ing] read ‘to bar extrinsic evidence for bias, competency and contradiction
impeachment since they too deal with credibility.’” Fed. R. Evid. 608(b)
advisory committee’s note (2003 Amendments) (quoting American Bar
Association Section of Litigation, Emerging Problems Under the Federal
18

Rules ofEvidence at 161 (3d ed. 1998)).
The Advisory Committee on the Rules did attempt, in a 2003
amendment of the rule, “to clarify that the absolute prohibition on extrinsic
evidence applies only when the sole reason for proffering that evidence is to
attack or support the witness’ character for truthfulness.” Fed. R. Evid. 608(b)
advisory committee’s note (2003 Amendments). Thus, “[t]he application of
Rule 608(b) to exclude extrinsic evidence of a witness’s conduct is limited to
instances where the evidence is introduced to show a witness’s general
characterfor truthfulness.” United States v. Skelton, 514 F.3d 433, 441 (5th
Cir. 2008) (quoting United States v. Opager, 589 F.2d 799, 801 (5th Cir.
1979), and adding emphasis). Put another way, the rule “limits only the use of
evidence ‘designed to show that the witness has done things, unrelated to the
suit being tried, that make him more or less believable per se.’” Learmonth v.
Sears, Roebuck & Co., 631 F.3d 724, 734 (5th Cir. 2011) (quoting United
States v. Fusco, 748 F.2d 996, 998 (5th Cir. 1984), and adding emphasis).
The resolution of the lower courts in the present case demonstrates that
ambiguity nonetheless remains. Petitioner emphasized that evidence of the
alleged victim’s lie to police officers was offered not to show a “general
character for [un]truthfulness” “unrelated to the suit being tried,” but to show
untruthfulness in the investigation of the very offense being prosecuted in the
case at bar. See App. A021, A038. But the lower courts failed to recognize
this distinction. The district court held the Rule 608(b) limitations applied
despite the fact that the lie was told during investigation of the very offense
being prosecuted. The court then exercised its discretion, citing Rule 403 and
Rule 412 in addition to Rule 608(b), to preclude even cross examination. See
19

App. A002, A157-58. The court of appeals similarly ignored the fact that the
lie was told during investigation of the very offense being prosecuted and
simply affirmed the district court’s Rule 403 ruling as “within its discretion.”
App. A002.
The lower courts’ oversight makes the present case a good vehicle to
clarify the narrow scope of Rule 608(b).9 The rule limits evidence of specific
instances of untruthfulness when they are offered for the sole purpose of
showing a general character for untruthfulness. It does not limit such
evidence when it is offered for some other impeachment purpose, “such as
contradiction, prior inconsistent statement, bias, and mental capacity.” Fed. R.
Evid. 608(b) advisory committee’s note (2003 Amendments). Being
untruthful during the investigation of the very offense being prosecuted is
analogous to these latter types of impeachment, not impeachment by evidence
of general character. The Court can make clear the narrow scope of Rule
608(b) by granting this petition and reversing the judgment below.

9 The abuse of discretion standard of review does not make review
problematic because the lower courts’ rulings were based on erroneous
interpretation of the rule. And “[a] district court by definition abuses its
discretion when it makes an error of law.” Koon v. United States, 518 U.S. 81,
100 (1996). See also Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 405
(1990) (“A district court would necessarily abuse its discretion if it based its
ruling on an erroneous view of the law. . . .”).
20

C.

THE QUESTIONS PRESENTED ARE IMPORTANT BECAUSE

THEY IMPLICATE THE MOST FUNDAMENTAL ASPECT OF THE
SIXTH AMENDMENT RIGHT TO CONFRONT WITNESSES.

The questions presented are important because Confrontation Clause
interests are at their zenith when a defendant seeks to challenge the credibility
of a crucial government witness. A defendant has a general right “to expose to
the jury the facts from which jurors . . . could appropriately draw inferences
relating to the reliability of the witness.” Delaware v. Van Arsdall, 475 U.S.
673, 680 (1986) (quotingDavis v. Alaska, 415 U.S. 308, 318 (1974)). And
this right is especially important when the witness is “a crucial. . . witness”
and undercutting his or her testimony would do “[sjerious damage to the
strength of the [government’s] case.” Davis, 415 U.S. at 419. This interest
overrides other privacy interests, as explained by the Supreme Court in
considering a juvenile privacy statute in Davis.
We do not and need not challenge the State’s interest
as a matter of its own policy in the administration of
criminal justice to seek to preserve the anonymity of a
juvenile offender. (Citation omitted.) Here, however,
petitioner sought to introduce evidence of [the juvenile
witness’s] probation for the purpose of suggesting that [the
witness] was biased and, therefore, that his testimony was
either not to be believed in his identification of petitioner or
at least very carefully considered in that light. Serious
damage to the strength of the State’s case would have been
a real possibility had petitioner been allowed to pursue this
line of inquiry. In this setting we conclude that the right of
confrontation is paramount to the State’s policy of
protecting a juvenile offender. Whatever temporary
embarrassment might result to [the witness] or his family
by disclosure of his juvenile record - if the prosecution
insisted on using him to make its case - is outweighed by
petitioner’s right to probe into the influence of a possible
bias in the testimony of a crucial identification witness.
21

Id., 415 U.S. at 319.
The questions presented also sweep broadly. The evidence at issue prior prostitution activity - arises in many, perhaps most, sex trafficking cases.
The questions’ resolution will therefore impact a broad class of cases, not just
Petitioner’s case.

VI.
CONCLUSION

The Court should grant the Petition.

Respectfully submitted,

ezz

DATED: July 32^2020

CARLTON F. GUNN
Attorney at Law

22

